Audit Report



Return to the USDOJ/OIG Home Page



Immigration and Naturalization Service
Intergovernmental Service Agreement for Detention Facilities 
with The Office of the Sheriff DuPage County, Illinois

GR-50-02-001
November 1, 2001
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General (OIG), Audit Division, has completed an audit of a proposal from the Office of the Sheriff, DuPage County, Illinois, for an increase in the detainee day rate as part of its Intergovernmental Service Agreement (IGA) with the Immigration and Naturalization Service (INS).  The current INS agreement, which took effect on December 1, 1999, provides that the Sheriff will house INS detainees in the DuPage County Jail at a detainee day rate of $67.50.  On May 8, 2001, the Sheriff requested that the rate be increased to $93.65.  The INS asked us to examine the support for the proposed rate to determine whether the additional $26.15 is justified.  Our objective was to establish an audited rate based on allowable costs incurred and detainee days used during the DuPage County's Fiscal Year (FY) 2000 (December 1, 1999 through November 30, 2000).  

The Jail Services Cost Statement (Cost Statement), prepared by the Sheriff in support of its proposed rate, reported costs of $24,166,701.  We took exception to $2,102,975 of these costs because they were unsupported or unallowable.  Offsetting these unallowable costs, however, were $1,858,638 in unreported costs that we determined were allowable.  In addition, we added back $3,298,230 representing INS reimbursements for jail services that should not have been deducted from the Cost Statement.  The net effect of these adjustments was that allowable costs should have been $27,220,594, or $3,053,893 higher than shown on the Cost Statement.  

Because actual allowable costs are understated, the Sheriff's proposed daily detainee rate is also understated.  Actual allowable costs support a rate of $106.86, or $13.21 higher than the $93.65 the Sheriff is proposing.  In our opinion, allowable costs and, therefore, the daily rate were understated partly because the Sheriff's Office official who prepared the Cost Statement did not have an accounting or financial background.     

The findings are described in detail in the Findings and Recommendations section of this report.  Our audit scope and methodology appear in Appendix II.